WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

Nazir Khan et al.

20-773
v.

Merit Medical Systems, Inc. et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

See attached sheet

□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be ﬁled by a Bar member.
Signature
Date:
(Type or print) Name

David R. Todd
□ Mr.

Firm

□ Ms.

□ Mrs.

□ Miss

WORKMAN NYDEGGER

Address

60 East South Temple, Suite 1000

City & State
Phone

Salt Lake City, Utah

801-533-9800

Zip
Email

84111

dtodd@wnlaw.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

Jonathan A. Herstoff

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No. 20-773
Nazir Khan et al. v. Merit Medical Systems, Inc. et al.

SUPPLEMENTAL ATTACHMENT TO WAIVER FORM

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondents:

Merit Medical Systems, Inc.; Mountain Medical Physician Specialists, P.C.; Clinton
Atkinson; Kourosh Baghelai; Yvon R. Baribeau; Randal Bast; Pankaj Bhatnagar; George
Blessios; Matthew J. Borkon; Victor Bowers; Robert S. Brooks; Matthew G. Brown; Robert
Brumberg; Jason Burgess; Jeffrey Cameron; James W. Campbell; Tuan-Hung Chu; Abilio
A. Coello; Jason Dew; Hector Diaz-Luna; Ellen Dillavou; William Ducey; Ty Dunn; Amit
Dwivedi; Todd Early; Luis G. Echeverri; Charles M. Eichler; Larry D. Flanagan; Lee
Forestiere; Dennis Fry; Michael Gallichio; Eric Gardner; Joy Garg; Joseph Griffin; Brad
Grimsley; Alok K. Gupta; Allen Hartsell; Thomas Hatsukami; Jon R. Henwood; Timothy C.
Hodges; Stephen Hohmann; Robert Hoyne; Stephen Jensik; Blair Jordan; Fernando Kafie;
Howard E. Katzman; John C. Kedora; Edward Kim; Michael Klychakin; Eric Ladenheim;
Anne Lally; Chad Laurich; James D. Lawson; Damian Lebamoff; Heather LeBlanc; David
B. Leeser; Gary Lemmon; Eddy Luh; Jeffrey Martinez; Jonathon R. Molnar; Robert Molnar;
Sheppard Mondy; Edward Morrison; Raghu L. Motagnahalli; Ruban Nirmalan; William
Omlie; Paul Orland; Gerardo Ortega; Herbert Oye; Boris Paul; Jeffrey Pearce; Heidi A.
Pearson; Thomas Reifsnyder; Walter Rizzoni; James R. Rooks; Carlos Rosales; Thomas
Ross; Allan Roza; Ignacio Rua; Marius Saines; Albert Sam; Angelo Santos; Howard L.
Saylor; Andres Schanzer; William Schroder; Stephen Settle; Murray L. Shames; Andrew
Sherwood; Jeffrey Silver; Eugene Simoni; David Smith; Todd Smith; William Soper; Jeff
Stanley; Gary Tannenbaum; William J. Tapscott; Chase Tattersall; W. Andrew Tierney;
Gustavo Torres; Boulos Toursarkissian; Stephen Wise Unger; Alexander Uribe; Julio
Vasquez; Jonathan Velasco; Benjamin Westbrook; Michael Willerth; Thomas Winek;
Christopher Wixon; Peter Wong; Virginia Wong

